U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 14, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Juan Pablo Price v. United States, No. 20-7909
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 26, 2021.
The government’s response is now due, after one extension, on July 6, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
August 5, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-7909
PRICE, JUAN PABLO
USA

JONATHAN DAVID LIBBY
OFFICE OF THE FEDERAL PUBLIC DEFENDER
321 EAST 2ND STREET
LOS ANGELES, CA 90012
213-894-2905
JONATHAN_LIBBY@FD.ORG

